<html>
<title> - SECURING THE NORTHERN BORDER: VIEWS FROM THE FRONT LINES</title>
<body><pre>[Senate Hearing 110-1024]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-1024
 
        SECURING THE NORTHERN BORDER: VIEWS FROM THE FRONT LINES 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 2, 2008

                               __________

                    FIELD HEARING IN HAVRE, MONTANA

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-121 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                        Sue Ramanathan, Counsel
                James Wise, Office of Senator Jon Tester
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
 Matthew L. Hanna, Minority U.S. Customs and Border Protection Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk

















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Tester...............................................     1

                               WITNESSES
                        Wednesday, July 2, 2008

Dan W. McGowan, Administrator, Disaster and Emergency Services, 
  Montana Department of Military Affairs.........................     3
Robert DesRosier, Director, Disaster and Emergency Services, 
  Blackfeet Nation...............................................     7
Donna Matoon, Sheriff, Toole County, Montana.....................     9
Michele James, Director, Seattle Field Operations, and Brenna 
  Neinast, Chief, Border Patrol Sector Havre, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........    11
Loren L. Timmerman, President, Chapter 231, National Treasury 
  Employees Union, Great Falls, Montana..........................    25
J. Alexander Philp, Ph.D., President and Chief Executive Officer, 
  GCS Holdings, Inc..............................................    26
Kristian D. Merkel, Ph.D., President and Chief Executive Officer, 
  S2 Corporation, Bozeman, Montana...............................    30

                     Alphabetical List of Witnesses

DesRosier, Robert:
    Testimony....................................................     7
    Prepared statement with an attachment........................    48
James, Michele:
    Testimony....................................................    11
    Joint prepared statement.....................................    54
Matoon, Donna:
    Testimony....................................................     9
    Prepared statement...........................................    52
McGowan, Dan W.:
    Testimony....................................................     3
    Prepared statement with attachments..........................    35
Merkel, Kristian D., Ph.D.:
    Testimony....................................................    30
    Prepared statement with an attachment........................    86
Neinast, Brenna:
    Testimony....................................................    11
    Joint prepared statement.....................................    54
Philp, J. Alexander, Ph.D.:
    Testimony....................................................    26
    Prepared statement...........................................    79
Timmerman, Loren L.:
    Testimony....................................................    25
    Prepared statement...........................................    68

                                APPENDIX

Annmarie Robinson, Regional Water Coordinator, North Central 
  Montana Regional Water Authority, prepared statement...........    94
Post-hearing questions and responses for the Record from:
    Ms. James and Ms. Neinast....................................    96


        SECURING THE NORTHERN BORDER: VIEWS FROM THE FRONT LINES

                              ----------                              


                        WEDNESDAY, JULY 2, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                     Havre, Montana
    The Committee met, pursuant to notice, at 10 a.m., in 
Havre, Montana, Hon. Jon Tester, presiding.
    Present: Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I will call this meeting of the Homeland 
Security and Governmental Affairs Committee to order. Thank 
you, everyone, for being here, especially approaching the 4th 
of July. I know we have a few of the panelists that took 
vacation time to be here, and I appreciate that a lot.
    I want to welcome the witnesses. We have folks from every 
level of government--Federal, State, and local--and these are 
the folks we want to hear from, what they are doing to help 
secure the border every day.
    We are going to have two panels this morning. To each of 
the witnesses, your complete testimony will be inserted in the 
record, but I would ask you to summarize your testimony in 
about 5 minutes if you can. We will not hold you strictly to 
it, but if you can kind of bounce around that area, we would 
appreciate it.
    Following those two panels, we will have a brief discussion 
with some questions from me after you have all given your 
testimony, and then following the two panels, we are going to 
open the floor up. This hearing is scheduled to go from 10 
through 11:30 a.m. If we finish quicker, then that is fine. 
Until the time of noon, we will give the people in the audience 
an opportunity to talk about anything you want, quite honestly. 
This is dedicated to border security and specifically to border 
security, but you can talk about anything you want. The only 
thing that I would ask the people who talk after the formal 
hearing is over is that you limit the time of your comments to 
about 1 or 2 minutes. If you can do that, we can get through a 
lot of folks. We can get through 30 people in a half-hour if 
you limit it to a minute. So there will be a quick break.
    I would encourage the witnesses and the panelists to stay 
here, because I am sure there will be some issues brought up on 
security.
    This hearing is titled ``Securing the Northern Border: 
Views from the Front Lines.'' Our goal today is to hear from 
the many folks who stand watch on that border, at the Federal, 
State, and local level.
    Over the past couple days, I and members of my staff have 
been traveling a good portion of the Hi-Line, visiting with 
folks about what is on their minds when it comes to the border.
    I was pleased to be joined in Scobey, Montana, on Monday by 
the No. 2 man at the Department of Homeland Security, a fellow 
by the name of Paul Schneider, and we visited about the border. 
It was interesting. He landed in Helena and then came up to 
Scobey. His words exactly to me when I met him were, ``I am 
glad I did this. I would not have believed it if I had not seen 
it,'' talking about the rural nature, the number of people, and 
the vast distances. We all know. We live here. We understand 
it.
    As we all know, the U.S.-Canada border is a source of 
pride. Some 4,000 miles long, it is the longest demilitarized 
border in the world. It is a very special place. We have 
friends to the north, and, of course, our friends to the north 
have friends here in the United States.
    But that does not mean that we can be complacent. Drug 
trafficking across our border is a problem--whether you are 
talking about BC Bud, or something worse.
    There are known terrorist groups that are organized in 
Canada. And when a potential terrorist travels, say, from 
England to Canada, it will attract somewhat less attention than 
if they try to fly directly into the United States.
    I want to emphasize that our friends on the Canadian side 
of the border are steadfast allies. That is one of the major 
differences between the northern border challenges and the 
southern border challenges. And I truly appreciate the 
friendship with them. We all know we have oftentimes more in 
common with our folks to the north than we do with our folks to 
the east.
    So the stakes are high with making sure that our border is 
secure. But we also need to make sure that we continue to 
encourage the vital economic link between the United States and 
Canada. The border is a major commercial artery for Montana and 
our entire Nation.
    And it is not an easy balance, for sure. I think the folks 
on the ground will tell you that.
    I want to introduce the panel of witnesses. These folks are 
from around Montana who work hard every day to keep the border 
safe.
    Representing the State of Montana, we have the Director of 
Disaster and Emergency Services, Dan McGowan. He is the guy who 
is responsible for making sure that Montana is ready and able 
to respond in any situation ranging from a natural disaster to 
a potential case of foot-and-mouth disease to an attack on a 
dam or a refinery or whatever.
    Also, we have a gentleman by the name of Robert DesRosier. 
Mr. DesRosier is the head of Disaster and Emergency Services on 
the Blackfeet Reservation. As such, Mr. DesRosier is 
responsible for securing the 60 miles of border between Canada 
and the reservation. To do so, he must work with the U.S. 
Customs and Border Protection (CBP), the Bureau of Indian 
Affairs (BIA), the Park Service--a lot of agencies.
    Then we have from Toole County, Donna Matoon. Ms. Matoon is 
the sheriff in Toole County, and she will visit with us about 
local law enforcement, what its role is in border security and 
potentially what we can to help improve that. I also want to 
point out that Ms. Matoon took time out of her vacation to be 
here today, and I really appreciate you being here. I think it 
indicates to me how important you feel this issue is.
    At the end of the table we have Brenna Neinast, who runs 
the Havre Sector--many of you folks know her--of the Border 
Patrol. She has under her direction more than 100 Border Patrol 
officers responsible for securing the border from Glacier Park 
to the Montana-North Dakota border.
    And, finally, we have Michele James. She is the Director of 
Field Operations for Customs. She covers the territory between 
North Dakota and Seattle. No small feat.
    And so when we get done with this, we will go to the next 
panel, and I will introduce them. But since we are limited on 
time, we will get started.
    Mr. McGowan, you can fire away.

  TESTIMONY OF DAN W. MCGOWAN,\1\ ADMINISTRATOR, DISASTER AND 
   EMERGENCY SERVICES, MONTANA DEPARTMENT OF MILITARY AFFAIRS

    Mr. McGowan. Thank you, Senator Tester and Members of the 
Committee, ladies and gentlemen, on behalf of Governor Brian 
Schweitzer, thank you for the opportunity to testify at this 
hearing and join this panel with our partners.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McGowan with attachments appears 
in the Appendix on page 35.
---------------------------------------------------------------------------
    Securing the northern border between Montana and Canada is 
a complex, multi-jurisdictional initiative whose success is 
founded in unity of vision, partnerships, and collaborative 
engagement grounded through a true grass-roots mechanism. The 
collaborative efforts require leveraging limited resources to 
successfully achieve an overwhelming task. The State of Montana 
appreciates the financial resources rendered through the 
Department of Homeland Security to advance border protection 
efforts. These funds have been leveraged with State financial, 
personnel, and resource contributions to maximize its northern 
border efforts.
    The State has engaged with many partners--Federal, local, 
tribal, county, and our partners to the north from Canada: 
British Columbia, Alberta, and Saskatchewan--to do several very 
important initiatives, and I will talk just about a few of 
those from a tactical perspective and also from a strategic 
perspective.
    Tactically, we have achieved many positive advances through 
these collaborative efforts. One that is engaged right now in 
our second attempt is an all-hazard, multi-jurisdictional, 
functional exercise with an international flavor working with 
Canada at the Port of Sweetgrass that will take place in 
September 2008. It is our second engagement with our Canadian 
partners to make sure that all of the connections, resources, 
and things that we need to work on are well oiled before 
anything could occur at the border.
    The Montana National Guard is extensively engaged in 
efforts to improve coordination and build partnerships for 
positive enhancements. They, too, with almost 10 of their 
component elements, will be involved in the Port of Sweetgrass 
exercise.
    The Montana National Guard's 83rd Civil Support Team is 
supporting preparedness, coordinating with all of our partners 
since its inception, and is extremely active. They have worked 
with the Blackfeet Nation on the suspected white powder 
incident. They are working with our critical infrastructure 
partners to improve integration efforts, and they also have 
provided geospatial imagery products to the U.S. Border Patrol 
in the Havre Sector.
    Other efforts that the Montana National Guard is involved 
in for border security include the Montana All-Threats 
Intelligence Center (MATIC); counter-drug missions; they assist 
Customs and Border Patrol with qualified intelligence officers; 
provide threat assessment information; training for the Joint 
Task Force North for U.S. Customs and Border Patrol personnel; 
and also provide analyst notebook training as well.
    Third, the Montana All-Threats Intelligence Center (MATIC) 
was formed focusing on mitigation efforts to provide 
protection. The MATIC is a joint effort of the Montana law 
enforcement community and the border agencies. It manages the 
State's intelligence system. And with international 
information-sharing sessions, they have engaged in discussing 
trends and threats as they relate to Montana.
    The integration of local and tribal law enforcement with 
border security initiatives is a critical component to 
protecting the northern sector because there is an 
understanding of the local issues by our local partners. They 
also predominantly are the first ones to respond if there is a 
violation at the border as it comes into their community. We 
have engaged through Operation Stonegarden not only in Federal 
fiscal year 2003 with 11 counties participating in that to 
assist our Federal partners in protecting the border but also 
have just engaged in Federal fiscal year 2008 with another 12 
counties, for a total of about $2 million in requests for local 
jurisdictions to assist our Federal partners in protecting the 
border.
    The expansiveness--and it is over 562 miles--of the border 
and the porous nature--there are 42 ports of entry with varied 
levels of operation--coupled with the limited resources and the 
responsibility for protecting those huge geographic areas with 
limited staffing is a recipe for the need to develop creative 
solutions in border security. The true reality is that border 
security will never be void of gaps in service or protective 
elements just because of the size and the geography. 
Realistically, though, border security is an initiative whose 
complexities prevent solely tactical elements from providing 
the ultimate solution.
    Montana has engaged in some strategic elements as well to 
achieve and help in protecting the border.
    The first is Interoperability Montana. It is an exciting 
grassroots strategic initiative to develop the most practical 
and effective redundant statewide communication system. Its 
demand is anytime from anywhere for any of our responders to 
talk to each other. The ultimate goal is one seamless 
communication system that serves local, tribal, State, Federal, 
and international needs while being most cost-effective for all 
those involved.
    We also have several mutual aid efforts. The State of 
Montana is a signatory partner to the Emergency Management 
Assistance Compact. We have Intrastate Mutual Aid, and we are 
dealing with two initiatives with our Canadian partners: The 
Prairie Regional Emergency Management Assistance Compact and 
also the Governor's Intergovernmental Accord for Canadian 
Mutual Aid.
    We also work extensively with our tribal partners and 
Native Nations. We have coordinated the Indian Nations Working 
Group with our tribal partners to enhance homeland security and 
emergency management. And our tribal partners are one of the 
first, if not the only, to promulgate a mutual aid agreement 
between the nations and Montana.
    The State of Montana is truly appreciative of the 
Department of Homeland Security funds it receives and willing 
to participate with the northern border security initiative. 
But from firsthand experience, that participation is not 
without its challenges. Because of that, those challenges and 
the opportunities that we have experienced and what we have 
seen as boots on the ground, we offer the following, Senator, 
for your consideration because it is the effectiveness 
enhancements that the Federal level will provide to us that 
will allow these to continue.
    After September 11, 2001, we know the landscape for 
protecting our border and our country changed, and the Federal 
Government supplied a lot of funds to enhance our ability. The 
sustainability of our efforts, though, will not be achievable 
without continued Federal funding at the appropriate level 
because Montana receives reduced funding each year, but we 
still have the same priorities as all the larger States, like 
New York.
    No. 2, we implore you to fund a solution for mutual aid 
along the border. Right now, there are disjointed, distracted 
regional efforts between the States and the provincial parts of 
Canada. It is one border. We have currently a Western Regional 
Compact that has been promulgated and has been approved by the 
Senate. New York just did one. And the other compacts work in 
between and have to be approved by the U.S. Senate and House of 
Representatives. So we say why not just have one compact 
between the State and Canada that allows States and provinces 
to effectively share accurate and coordinated assistance for 
mutual aid.
    Operation Stonegarden needs a little bit of improvement. It 
is a local grant. But understand that local sheriffs and 
jurisdictions are tapped. The basic statistics right now: Of 
the 32 departments in Montana, 67 percent of the offices have 
nine or fewer officers, let alone the expertise to prepare 
long, lengthy grants. That is why the State of Montana had to 
actually procure a contractor to do this Federal fiscal year 
2008 grant, and there was minimal technical assistance. The 
real downfall of this grant is the fact that the State 
administrative agency has to administer it with no call for 
maintenance and administration fees, but we are required to do 
all of the coordination, all of the reporting, gather all the 
documents. It is almost like one of those unfunded mandates, 
and I hate to say that word, but there is no maintenance and 
administration for it.
    The Homeland Security grant submission requirements are 
extremely cumbersome, complex, and time-consuming. The grants 
need to be simplified. They are counterproductive in requiring 
reports that are unfunded in the grant parameters, reports that 
cause State government with our partners to virtually shut down 
our stakeholders in order to achieve a deliverable that is not 
part of our plan for which we submit money to enhance Montana's 
priorities for homeland security.
    The grant implementation parameters are also troubling. 
There are two initiatives right now: The National Incident 
Management System (NIMS) implementation issue and also the 
State Preparedness Report. For example, on the State 
Preparedness Report, the guidance came out. Not 10 months 
later, though, did we receive the guidance for what the report 
was supposed to entail. We had to engage Congress--and Senator 
Tester was very helpful--in getting an extension for that. So 
basically Montana ended up with 4 months to do an 11-month 
project----
    Senator Tester. Mr. McGowan, I am going to ask you to wrap 
it up.
    Mr. McGowan. Sure. I will wrap it up. That was continued by 
NIMS. Again, we were faced with short timelines. The guidance 
came out, and not only in April did we get the final guidance, 
but we finally got the tool just last week, and we still have a 
September 2008 deadline, and that affects all our 
jurisdictions.
    So the NIMS requirement and those parameters need to be 
looked at in the grants because they give such short timelines.
    The other issue is with our Native nation partners. The 
State will continue its efforts to advance tribal government-
to-government relations, and with regard to implementation 
requirements, we find ourselves being the ombudsman for the 
Federal Government, and the nations are asking for the true 
nation-to-nation agreement that they expect with the Federal 
Government. Anecdotal evidence shows that the nations are 
frustrated with not having one voice from the Federal 
Government for all the similar issues they deal with that come 
from different agencies.
    We understand the complexity of this task. In 
Interoperability Montana, we asked for more participation there 
from our Federal land partners. To date, the Bureau of Land 
Management (BLM) is the only partner that is engaged with us. 
And the MATIC requests that DHS play an active role in the 
fusion center to improve collaborative intelligence.
    To wrap up, in summary, the cornerstone for success of 
northern border security efforts relies on true collaboration 
between and among agencies. Parochial interests must not be 
detractors to such significant coordination initiatives. 
Collaborative efforts and partnership development must not be 
restricted by inflexible grant parameters or directives that 
are not reflective of the needs.
    The State's challenge is to actively engage leveraging 
every available resource and inform our national leaders of 
those inherent roadblocks, and to that effect, we hope that we 
have done that effectively to give you an idea of what it is 
like from the State's perspective State, local, tribal, and 
private partnerships.
    Once again, thank you for the opportunity to be included in 
this testimonial regarding northern border security. The State 
of Montana welcomes the opportunity to coordinate with our 
Federal partners to improve program effectiveness, formalize 
sustainability, and enhance partnership through true grass-
roots collaborative efforts. Thank you.
    Senator Tester. Thanks, Mr. McGowan. Your entire statement 
will be put in the record.
    Mr. DesRosier, you are up. Hit the highlights. Thank you.

   TESTIMONY OF ROBERT DESROSIER,\1\ DIRECTOR, DISASTER AND 
              EMERGENCY SERVICES, BLACKFEET NATION

    Mr. DesRosier. Thank you. Good morning. My name is Robert 
DesRosier. I am employed by the Blackfeet Nation. I currently 
serve as Director for Blackfeet Homeland Security and Disaster 
and Emergency Services. I am very pleased to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. DesRosier with an attachment 
appears in the Appendix on page 48.
---------------------------------------------------------------------------
    The 1.5-million-acre Blackfeet Reservation is located in 
northwestern Montana, about 150 miles west of Havre. The 
international boundary cuts through our reservation for a 
distance of approximately 65 miles, which is about one-tenth of 
the State of Montana's border. Many times throughout and along 
our norther border, there have been crossings of a person or 
persons illegally entering into the United States through 
Blackfeet Nation lands. Most recently, vehicle tracks were 
spotted in an area just west of Del Bonita port of entry, where 
three vehicles approached the border from the north and pulled 
the fence post out of the fence, laid the wire down, and 
continued south onto the reservation. Further investigation 
revealed that the three vehicles were SUVs or full-size pick-up 
trucks traveling together.
    In the Chief Mountain area, foot and vehicle traffic has 
increased this past year, as revealed by the evidence left 
behind in the form of tracks. Off-road vehicles have crossed 
the border repeatedly in the Lee Creek drainage north of Chief 
Mountain. There are many places along the northern border on 
the Blackfeet Reservation where illegal border crossings have 
taken place. In fact, if you go to your local map store and 
purchase a topographic map of the Blackfeet Reservation, you 
will find there are nine crossings identified as border 
crossings; five of those illegal crossings have shown recent 
signs of activity. It is foolish for us to think that our 
northern border is secure today. We have much to do.
    The affected local Indian Nations have the most interest 
and knowledge to control the areas of concern as relating to 
crime and border-related issues. Ideas from Washington, DC, 
usually do not fit the local objectives. Our input, the Native 
community, is of the utmost importance when dealing with topics 
that have an impact on tribal lands and the entire United 
States. We must work to fund and train local tribal law 
enforcement for methods of deterrent and investigative 
procedures to deter crime--most importantly, border crime. The 
local Native American law enforcement officer has the 
integrity, courage, and scout and warrior skills necessary for 
the protection of his and her homeland and people.
    The ancestral values, field crafts, tracking, sign cutting, 
survival skills, and mental conditioning provide good qualities 
for good field detectives. The Native American can travel 
across wild country using many methods and possesses the 
natural skills to survive and handle whatever comes their way.
    Indian Nations, most importantly, must stand up and 
participate in this fight in our Nation's war against 
terrorism. The Blackfeet are known as true Americans eager to 
stand against our enemies. Local tribal members have an 
outstanding record of producing qualified professionals who, 
without a doubt, would lay down their lives for the defense of 
this great Nation. Currently, there are over 120 men and women 
from our local Indian community actively participating with the 
armed forces in the war against terrorism.
    The Blackfeet Tribal Homeland Security Program consists of 
two officers: Keith Lame Bear and myself. We work in the area 
of law enforcement with our primary focus on homeland security 
and border issues. However, our program is unfunded. Salaries 
come from other unrelated sources within tribal government. Our 
participation along the border is in the form of a Memorandum 
of Agreement with the Army Air National Guard for aircraft 
support and surveillance and reconnaissance missions. Flights 
are usually three times a month lasting about 2 hours. Our 
ground patrols have been scaled back to four times a month. 
Contact with the border on the average is six to eight times 
per month.
    Observation points have been identified at various 
locations for ground surveillance in some areas, and local 
intelligence reveals that there is a local tribal member 
offering guide services for illegal crossers for an individual 
fee of $1,500.
    Our program also includes patrols of the area's local 
infrastructure, such as the three large dams on the headwaters 
on the Blackfeet Reservation. Patrol vehicles and necessary 
equipment are in the form of donations and transferred surplus 
from the BIA or the General Services Administration (GSA). 
Adequate two-way radio and cell phone equipment is nonexistent.
    Never before in the history of this great Nation has the 
topic of homeland security become most important for us and for 
our future generation's survival as a free and democratic 
society for all to enjoy. Threats to the United States come 
from all directions, as well as from within. Terrorists, both 
foreign and domestic, continually desire to destroy the fabric 
that this country was founded on and the freedoms that we as 
Americans stand for and symbolize.
    The Blackfeet Nation remains firm as a sovereign Nation and 
as front-line security forces committed to the participation in 
the defense of the United States here in our homeland. We must 
continue to wage the international war on terrorism and work 
hard to deter all homeland threats. Complacency must not be 
allowed to become our enemy.
    We are in need of adequate funding for our proposed nine-
person security forces. The Blackfeet Homeland Security Forces 
will become a recognizable, professional, and competent police 
force that will address the many complex, potential attacks to 
our citizens.
    Thank you. It has been my pleasure for this opportunity to 
offer this testimony here before you on this great day in the 
history of the United States and the Blackfeet Nation.
    Senator Tester. Thanks, Mr. DesRosier. Ms. Matoon.

  TESTIMONY OF DONNA MATOON,\1\ SHERIFF, TOOLE COUNTY, MONTANA

    Ms. Matoon. Good morning. I would like to thank the 
Committee on Homeland Security and Governmental Affairs for the 
opportunity to speak at this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Matoon appears in the Appendix on 
page 52.
---------------------------------------------------------------------------
    Toole County is located in central Montana with 
approximately 50 miles of Canadian border front. This 
encompasses the Port of Sweetgrass, which is located on 
Interstate 15, a major transportation departure and entrance 
route between the U.S. and Canada. Due to our unique geographic 
location, Toole County has a tremendous transit population.
    Because of this, our agency has had a longstanding 
relationship with the U.S. Border Patrol, Customs, and 
Immigration Service, who have been recently combined into the 
Department of Homeland Security.
    When I began in law enforcement over 25 years ago, the U.S. 
Border Patrol had only seven agents stationed in our county. 
Many of these old-time Border Patrol agents came to be close 
friends, many of which I still have contact with today. We 
would stop into each other's office on a daily basis. We 
communicated while on patrol. We watched each other's backs 
like we were a part of the same agency. Oftentimes, the only 
assistance in the area that could arrive to help you in a 
timely manner were these Federal officers.
    The Port of Sweetgrass was a small operation with fewer 
than 20 employees. Many of these people were lifetime Toole 
County residents, and local law enforcement had close personal 
relationships with many of them.
    Since September 11, 2001, and the Federal Government's 
mandate to secure the homeland, we have seen unprecedented 
growth in the Department of Homeland Security in Toole County. 
Dozens of new Border Patrol agents have moved into the area, 
and the new U.S./Canadian combined port facility has been 
constructed at the Port of Sweetgrass. The number of Federal 
employees protecting our border in Toole County has increased 
ten-fold. Tremendous amounts of new technology and capabilities 
such as gamma ray x-ray machines, ground sensors, and air 
patrols have come to our area.
    Recently, members of the Border Patrol assisted members of 
our local emergency services and deputies in rescuing a hiker 
who was having a medical emergency in a remote and rugged area 
along the border. In large part, due to the actions of these 
Federal employees, this hiker was saved and was transported by 
helicopter to a medical facility. On any given week, deputies 
from our agency assist Federal authorities in apprehending port 
runners, border jumpers, and locating undocumented foreign 
nationals. We have participated in the Border Patrol's 
``Operation Stonegarden'' where local law enforcement is used 
as a force multiplier for Federal authorities along the border.
    With all this said, the changes that have occurred are not 
without some negative consequences. The introduction of so many 
new Federal employees in our area has forever changed the 
small-town closeness and camaraderie between the Federal 
agencies and local law enforcement. The daily meetings and 
informal information sharing that comes with close personal 
relationships have been replaced by quarterly intelligence 
meetings and Senate committees. As new Federal employees are 
constantly rotating in and out of our area, it is sometimes 
difficult to even put a face to the name you are dealing with.
    Communications have become a problematic issue where 
Federal authorities now operate on secure digital radio 
frequencies and car-to-car or officer-to-officer communications 
are not possible. Any communication between agents in the field 
and local law enforcement requires a telephone call relay to 
sector headquarters in Havre from our dispatch center in 
Shelby. This is slow, inaccurate, and unwieldy.
    In years past, when a sheriff's deputy overheard a Border 
Patrol officer check out with a suspicious person in the area, 
the deputy would make a point to head in that direction to 
provide back-up and assistance as needed. Border Patrol 
officers did the same for our deputies. Due to the 
communication issues, that level of assistance is no longer 
possible.
    Because of difficulties in filling Federal positions in 
this rural and isolated area, our agency finds itself in direct 
competition with the Federal Government when the time comes to 
recruit qualified staff from the local job pool. Recently, at a 
combined charity fund raiser with Federal officers, I found 
myself in the unique position of handing out T-shirts with 
large advertisements on the back that were recruiting for 
Border Patrol officers in our area--this while my own agency 
was operating at 75 percent of my patrol capacity.
    Please make no mistake, I am not begrudging anyone 
obtaining Federal employment with wage and benefit packages 
that local governments have no hope of matching, but I do want 
this Committee to be aware of the impact on our agency. 
Staffing shortfalls in our agency have a direct effect on our 
community at large. While the Federal officers are protecting 
the border, our deputies are protecting their children and 
families throughout the county.
    As time goes on, it is my hope that new personal 
relationships can be forged, communications will improve, and 
recruitment will not be as competitive in our area. For the 
last 25 years, I have worked with the exceptional men and women 
of the various Federal law enforcement agencies in our area. We 
are glad to have these good people and their families move into 
our area, enriching our communities and protecting this Nation. 
I look forward to many years of cooperation and interaction 
with our Federal partners. Thank you.
    Senator Tester. Thank you, Ms. Matoon.
    Now, Ms. Neinast and Ms. James, you two have a joint 
statement. Whichever one wants to go first, go ahead. Go ahead, 
Ms. James.

    TESTIMONY OF MICHELE JAMES,\1\ DIRECTOR, SEATTLE FIELD 
  OPERATIONS, AND BRENNA NEINAST, CHIEF, BORDER PATROL SECTOR 
 HAVRE, U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. James. Thank you. Good morning, Senator Tester. My name 
is Michele James. I am the Director of Field Operations in 
Seattle, Washington. I have oversight over the activities in 
the ports of entry in the States of Washington, Idaho, Montana, 
North Dakota, and Minnesota. It is an honor to have this 
opportunity to testify before you today, and I am going to 
focus on CBP's role on securing our borders while efficiently 
continuing to facilitate the flow of trade and travel.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. James and Ms. Neinast 
appears in the Appendix on page 54.
---------------------------------------------------------------------------
    The Great Falls service area covers 600 miles of border. 
Within that area, there are 17 land border ports of entry in 
Idaho and Montana. There are currently 230 CBP officers and 13 
agriculture specialists assigned within this area.
    In fiscal year 2007, CBP's front line inspected over 
719,000 private vehicles and 1.6 million vehicle passengers. 
More than 274,000 commercial trucks and over 1,700 private 
aircraft made entry into the United States during that time 
frame. There were three large-scale narcotics seizures that 
occurred within the cargo environment using sophisticated 
smuggling methods and compartments. In fiscal year 2007 alone, 
we seized 1,187 pounds of marijuana within this area.
    Another example of the enforcement efforts that our 
officers provide on our borders on a daily basis is depicted by 
an arrest of Rajit Singh. Singh applied for entry at the Port 
of Sweetgrass, Montana, and was found to have templates that 
had been used to make hundreds of fraudulent British resident 
alien and student registration cards. He was arrested and 
ultimately found guilty of visa fraud, aggravated identity 
theft, and identification fraud/document production. He was 
sentenced to 38 months' imprisonment and 3 years' supervised 
release. Full implementation of the Western Hemisphere Travel 
Initiative (WHTI) would greatly reduce the opportunities, as 
Mr. Singh attempted to afford, for fraud and misrepresentation 
of one's true identity.
    CBP has long recognized the need to improve our facilities 
and our infrastructure to more efficiently and effectively meet 
our mission's requirements. The Port of Sweetgrass was rebuilt 
in 2003 as a joint U.S.-Canadian port to include a full-size 
garage for non-intrusive scanning of commercial trucks. Since 
2004, new port construction has been completed in Willow Creek, 
Opheim, and Raymond. Secondary inspection garages have been 
funded for Morgan, Wild Horse, Del Bonita, and Willow Creek. 
All locations have personal radiation detectors, and radiation 
isotope identification devices have been deployed to the 
majority of our ports. Radiation portal monitor surveys have 
been completed also for the majority of our ports, and our 
locations are monitored 24/7 for our Customs Area Security 
Center, which is located in Sweetgrass, Montana.
    Finally, I would like to touch on our collaborative efforts 
between Border Patrol and other law enforcement entities within 
the State of Montana and also our counterparts across the 
border.
    CBP works directly with Immigration and Customs Enforcement 
(ICE), and the U.S. Attorney's Office to train new CBP 
enforcement officers in all aspects of case development and 
prosecution protocols. Since April 2007, we have successfully 
prosecuted 16 criminal cases in Federal court, and this has 
been a huge success in the State of Montana.
    This fiscal year, Field Operations has dramatically 
increases our involvement in the Integrated Border Enforcement 
Team (IBET). Field Operations chairs the Rocky Mount IBET Joint 
Management Team, and we have placed a CBP officer full-time on 
permanent staff in Sweetgrass to work the numerous cross-border 
narcotics smuggling and high-risk admissibility cases.
    Another great success is having the FBI collocated within 
Sweetgrass, Montana, as a northern border liaison.
    Most recently, CBP Field Operations, Border Patrol, and the 
Park Rangers conducted an operation at Goat Haunt. The 
operation focused on reporting compliance and any illicit 
activities within that area.
    These are just a few examples of the collaborative efforts 
with our partners out there.
    So, in closing, I want to emphasize that CBP will continue 
to protect America from allowing those who attempt to come in 
and do us harm. In doing so, we fully recognize that we need to 
continue to integrate the correct mix of staffing, greater 
investment in detection and technology infrastructure, and 
enhanced coordination amongst our partners here.
    I thank you for this opportunity to present today.
    Senator Tester. Thank you, Ms. James. Ms. Neinast.
    Ms. Neinast. Well, very quickly, everybody, I think, knows 
who I am, so we will cut through that.
    I am happy to be here today and have this opportunity and 
to carry on with what Ms. James had to say.
    I assumed command of the Havre Sector in November 2005. The 
Havre Sector is one of eight northern border sectors and is 
responsible for the majority of the State of Montana. There are 
456 miles from the North Dakota line to the Continental Divide. 
I look forward to speaking today about our operational efforts 
along the northern border, our partnerships with State and 
local governments and our methods of securing the Nation's 
borders.
    The U.S. Border Patrol is the sole entity responsible for 
securing our borders between the official ports of entry, and 
we base our operations on the Border Patrol National Strategy. 
This strategy calls for the proper mix of personnel, 
infrastructure, and technology, and we use a combination of 
efforts in achieving our goals.
    We depend on a ``defense in depth'' posture utilizing 
agents in the field, transportation checks, and coordinated 
enforcement operations as well as partnerships with other 
Federal and State law enforcement agencies. An example of this 
is our sector's joint operations with the Office of Field 
Operations and the National Park Service in which we focus on 
utilizing the strengths of each agency to further our 
capabilities in securing the rugged and difficult areas of the 
border.
    We have long maintained partnerships with a variety of 
other agencies with the goal of increasing effectiveness for 
all. For example, we frequently assist State and local agencies 
by responding to emergencies on their behalf in remote areas 
where we have a presence and can respond more quickly, as Ms. 
Matoon spoke to.
    We work closely with our Canadian counterparts through the 
Integrated Border Enforcement Teams to benefit both countries. 
We utilize our relationship to improve intelligence gathering, 
preparedness, and response capabilities along the border.
    The Border Patrol's objective is nothing less than gaining 
and maintaining operational control of the border. We recognize 
the challenges of doing so as we have dealt with them for over 
80 years. There has been an added focus on our operations in 
the past few years, and we certainly appreciate the support 
that this Committee has shown to Border Patrol.
    Securing our Nation's diverse border terrain is an 
important and complex task that cannot be resolved by a single 
solution alone. To secure each unique mile of the border 
requires a balance of personnel technology and tactical 
infrastructure that is tailored to each specific environment. 
What works in northern Montana is not necessarily the same 
solution that will work in southern Arizona. We recognize that 
as an organization and work towards that.
    The northern border has unique challenges, one being 
manpower. We have increased our agent staffing along the 
northern border to nearly 1,200 agents--a vast improvement from 
2001 when we had only 340 agents along the entire northern 
border. My sector alone has seen an influx of agents, greatly 
adding to my ability to address our security concerns.
    Challenges continue to lie ahead, and the need for 
comprehensive enforcement approaches remain. We face these 
challenges every day with vigilance, dedication to service, and 
integrity as we work to strengthen national security and 
protect America and its citizens. Our national strategy gives 
us the means by which to achieve our ambitious goal, and with 
this Committee's continued support, I am confident that we 
shall succeed.
    I would like to thank you for the opportunity to present 
this testimony today and for your support of the U.S. Border 
Patrol. I would be pleased to respond to any questions that you 
may have at this time.
    Senator Tester. Well, thank you. Thank you to all of the 
panelists for your testimony. Thank you for being brief. I 
think I will just start with Mr. McGowan, and we will go down 
the line.
    I want to talk a little bit about the Operation 
Stonegarden. You talked about local grants in your testimony. I 
think it was about $2 million that were in local grants. Is 
that in conjunction with the Operation Stonegarden?
    Mr. McGowan. That is the current Federal fiscal year 2008 
submission for all of the northern border jurisdictions that 
partnered together and put in an application.
    Senator Tester. And then you are basically responsible for 
the State in regards to natural disasters or manmade, either 
way. What is your interaction with folks like Ms. Matoon and 
Mr. DesRosier? What is the communication like with those folks? 
Is there information sharing and to what extent?
    Mr. McGowan. Basically, the communication with Ms. Matoon 
and Mr. DesRosier--we work with their respective emergency 
managers; we work with all 56 counties and seven nations. With 
some of the Federal partners on the border issues, we would 
work through the county coordinators because that is the local 
effort that involves that partnership there. We also work 
through the MATIC and other State efforts, though, with our 
Federal partners.
    Senator Tester. I do not see it here in my notes, but it 
seems to me you talked about interoperability with being able 
to talk to folks.
    Mr. McGowan. Right.
    Senator Tester. And it was talked about down the line. Ms. 
Matoon talked about it a little bit, too. How are we in that 
regard? Is it difficult if there is a problem to talk via radio 
to other entities? Because you are dealing with them all.
    Mr. McGowan. I would answer that question by saying that 
the State of Montana has, if not the only, one of the most 
proactive interoperability projects in the country. We use 
push-to-talk from anywhere in the State anytime to anyone, and 
it is an evolving process. They have a whole northern tier 
sector, and they work with all of those partners across the 
border and the Federal agencies to try and engage in that, and 
that is an emerging process. I think the estimate was around 
$125 to $150 million to complete that whole project. It is 146 
radio towers because it is all line of sight, and so it keeps 
emerging and evolving, and they hope to light it up soon on the 
northern tier.
    Senator Tester. We are going to go back to those grants you 
talked about were a bit cumbersome and daunting to fill that 
out. Did you help the counties fill those grants out? I know 
the Border Patrol did some work on that. Did you?
    Mr. McGowan. What we did was the State hired a contractor 
to work with those local communities to pull those grants 
together, yes.
    Senator Tester. Can you give me an idea what that cost?
    Mr. McGowan. I do not know what the actual cost of the 
contract was because it was done through the Department of 
Administration. We, as a State administrative agency, took all 
that information to do the submission and everything through 
the portal that needs to be done, and then we will make sure 
that all the reports are done as well.
    Senator Tester. Right. But this was an additional person 
that would not have been hired otherwise.
    Mr. McGowan. Right.
    Senator Tester. How long did they work for?
    Mr. McGowan. That was approximately--that took about 2\1/2\ 
months, I believe, to pull all that together, because it was a 
pretty short turn-around time.
    Senator Tester. Thanks, Mr. McGowan. Mr. DesRosier, you 
talked about five recent signs of border-crossing activity in 
your neck of the woods and three SUV-like vehicles or RVs that 
had crossed the border, which is more often than we would like 
for sure. Can you tell me what happened to those folks? Did you 
just find the signs and that was it? Or was Border Patrol and 
local government brought in? How is that handled when you see 
signs like that?
    Mr. DesRosier. The particular case of the three vehicles, 
the pick-ups or SUVs, whatever they were, we were unable to 
locate them. They disappeared on a county road just west of the 
port of Del Bonita, and we were unable to track them to see 
what direction they went.
    Border Patrol has been very good with us, especially Mr. 
Jeffries. He has been appointed our Indian liaison person, and 
I communicate with him on a regular basis. We definitely share 
our intel and report the evidence and the tracks that we see.
    For example, in the Lee Creek drainage, last July and 
August we had really high activity of crossers on a particular 
ridge line. We work together and share that information and let 
each other know. And I believe Border Patrol has put patrols in 
that area.
    Senator Tester. And then does your group share in training 
exercises with the Border Patrol?
    Mr. DesRosier. We have one time in the past. We had an 
operation where we shared a training exercise, a night 
operation, and we were successful. We had an incident during 
that operation where we had weapons fired, and it turned out to 
be non-border-related, but the pursuit was in the direction of 
the border, and we were able to make an arrest in that 
situation with the Army helicopter using infrared night vision.
    Senator Tester. Can you tell me when that joint training 
took place? I do not need to know the exact date, but was it in 
the spring of 2005 or----
    Mr. DesRosier. That was in October 2004, I believe.
    Senator Tester. October 2004. You talked about information 
with the liaison. You have the Border Patrol information 
shared. Is that information also shared with any other entity 
like tribal police? Or is it not necessary? Just to get your 
perspective.
    Mr. DesRosier. It depends on the situation. We do have a 
Federal police force on Blackfeet, the Bureau of Indian 
Affairs, and the chief of police is very proactive and 
encouraging with the activities that we share along the border. 
He will participate in our operations, yes.
    Senator Tester. There is a program in Arizona directed 
really at drug smuggling whereby one of the tribes down there--
it is called the Shadow Wolves Program. You may be familiar 
with it. Have you looked at anything like that on your border 
from a drug smuggling standpoint specifically?
    Mr. DesRosier. Absolutely, yes.
    Senator Tester. And have you progressed with that at all? 
Whose ear have you been bending?
    Mr. DesRosier. I have been in contact with the resident 
agent in charge (RAC) out of Phoenix, I believe, and we hosted 
a 2-week session with those officers that came up to Blackfeet 
country last summer. We are in the process of communicating 
right now to try to have another session on the Blackfeet 
border. We would like to do a broad overview to get a real good 
inventory on what the issues are.
    Senator Tester. OK.
    Mr. DesRosier. And so hopefully they will be back.
    Senator Tester. If you were to pick out one thing that 
could be done to improve border security, what would it be? I 
am just talking basically about the Blackfeet because you are 
in a unique situation. There is not a lot of Native American 
reservations that border the Canadian border along the northern 
tier, at least. There may be some in the south I am not aware 
of. But along the north, you are kind of a unique animal. Is 
there one or two things that you think could be done that would 
help that security?
    Mr. DesRosier. We would like to begin a sister agency of 
the Shadow Wolves and bring a unit to Blackfeet country.
    Senator Tester. Thank you very much, Mr. DesRosier. I 
appreciate you being here also.
    Ms. Matoon, we will start out with staffing because I know 
that is a big issue. Getting good help is hard to find, it 
seems like these days. Could you tell me what the impacts have 
been--you said your staffing is 75 percent. Have you ever been 
at 100 percent? You know what I mean, because a lot of times 
these county governments have a hard time finding folks.
    Ms. Matoon. Right, and just like every place else, we have 
always experienced that problem. Right now, though, it seems to 
be more of an issue--I do have employees that are coming to me 
saying, ``Border Patrol is opening now,'' or ``Customs and 
Border Protection, they have got several openings, and I am 
seriously considering this,'' because with our health care 
costs, our insurance through our county is taking half of their 
paychecks.
    Senator Tester. Yes.
    Ms. Matoon. And they just cannot--they are not living, and 
they are having an issue with being able to survive. They like 
what they are doing, and I believe that they do like what they 
are doing. But they are just not making it.
    Senator Tester. I hear you, and we have to figure out some 
way to address that problem because, quite honestly, I have 
been pushing the Federal entities to hire more folks from 
Montana because I think their job--people on the job would stay 
here a lot longer if they know. But by the same token, I do not 
want to rob Peter to pay Paul. Do you know what I mean?
    Ms. Matoon. Yes.
    Senator Tester. The issue of the way things used to be with 
more camaraderie, I guess you visit with folks more regularly 
on an informal basis and build the kind of trust that was 
there. Do you anticipate this is something that is probably 
going to be in for the long term? Is it because of the new 
people, or is it because policies have been enacted that you 
see from your perspective that say we need to keep everything 
as separate as possible? I am just trying to get your 
perspective on that.
    Ms. Matoon. I kind of think that what has happened is in 
the last few years this has happened quickly, and there has 
been an influx of people that they have brought up from the 
southern border, and we are from different areas. We have all 
been raised--the people from Toole County that have been there 
their whole life have no idea what it is like to live in 
California, and their attitudes about people and things around 
them are different. But I know that a lot of the people who 
were moved up here have now returned to the southern border 
because of their families--they just could not take it.
    Senator Tester. Right.
    Ms. Matoon. I am hoping that we can get some people up to 
our area that are willing to stay, become part of our 
community--and that we can work together.
    Senator Tester. Can you give me any kind of idea how many 
instances you respond to in a month dealing with border issues? 
Is that a fair question?
    Ms. Matoon. It varies. It seasonally varies. It depends on 
what Border Patrol's staffing is at the time, if they have 
somebody who runs the port, if they have somebody who is 
available. We assist both from the port of entry, and we also 
assist Border Patrol.
    Senator Tester. So if there is a situation, are you asked 
to assist?
    Ms. Matoon. I do not believe that we are as much as we used 
to be.
    Senator Tester. OK.
    Ms. Matoon. I do not think that the communication is open 
as it used to be because of those issues. It is not like them 
calling me up at home as it used to be. And I understand things 
change, and it is an adjustment.
    Senator Tester. How about potential threats--I mean 
Sweetgrass is probably the busiest port in Montana, would be my 
guess. Are you made aware of potential threats not coming to 
fruition, but the threat is there, so that you guys can act 
accordingly?
    Ms. Matoon. No, I guess I do not know that.
    Senator Tester. OK.
    Ms. Matoon. I cannot answer that question whether they are 
telling it to me or not. I guess I would not know that. If it 
is an issue of something that is classified--now, this is my 
interpretation--probably I will not be made aware of it. If it 
is unclassified but law enforcement sensitive, then they will 
make contact with us.
    Senator Tester. That is good question for these next two, 
classified versus unclassified, what constitutes that? I will 
ask you that in a minute. I want to stay with Ms. Matoon for a 
second.
    Not to pit you against Mr. McGowan or anybody else on the 
panel, but you are aware of the Stonegarden grants. I assume 
that your county was part of that--because all of the counties 
along the border were. How much time did it take you guys to 
apply for those grants? Was it pretty time-consuming? And do 
you think that process could be streamlined?
    Ms. Matoon. Comparably, I think it was a very easy grant. 
We have a grant writer in our county to assist us, and I also 
have two employees in my office that are very good at writing 
grants. So I do not know if that is fair to say, but we were 
able to write our own. We did submit ours to the State for 
review, and so they were all submitted as one package. We all 
submitted together.
    Senator Tester. OK.
    Ms. Matoon. But, comparably, I do think that this 
particular one was fairly simple.
    Senator Tester. Since September 11, 2001, have you seen 
more pressure being put on your police--not from staffing, 
necessarily, because I get that. But have you seen more 
pressure from a police protection standpoint being put on your 
local county folks than there was before September 11, 2001, or 
less, or is it about the same?
    Ms. Matoon. I think it is about the same.
    Senator Tester. All right. Well, once again, I want to 
thank you for being here.
    Ms. James or Ms. Neinast, either one, what makes 
information classified versus unclassified? Can you give me any 
sort of idea on that? And is there a delineation mark as far as 
what information you can transfer to tribal governments, county 
governments, Highway Patrol, or whatever?
    Ms. James. Well, certainly as far as what is classified or 
not, there is certain information that will come to the field 
office and to the port that will be classified secret or top 
secret. Most of what we would get would just be classified 
secret. We do not classify that ourselves. It comes down to us 
in that manner.
    We could share with the State and locals and, of course, 
with Border Patrol if they have the clearance to receive that 
information at the secret level or above. There are 
methodologies of sharing that information, if it is classified, 
at a lower level so that we can get the basic information, the 
basic threat to the State and locals.
    Senator Tester. Do you work proactively on making that 
happen when you can?
    Ms. James. Absolutely.
    Senator Tester. Do you see any advantage for making sure 
that we have at least one person in every county to be at a 
classified secret level? Do you think that would be a good 
idea? Or would it be not necessary?
    Ms. James. I think that it is always a benefit so that if 
information does come through, we have a person to readily give 
it to. The frequency of getting that type of information is not 
at as great of a level in every location. But it would always 
be a benefit.
    Senator Tester. Ms. James, I have learned a lot over the 
last 3 days, starting in Plentywood and heading this direction, 
as I told you out in the anteroom. It has been quite 
enlightening for me.
    How often do you get to Montana?
    Ms. James. I became the Director of Field Operations in 
November 2007, so I am relatively new to this position. I came 
from the Atlanta area. Within the first few months of me being 
onboard, I tried to get out to my area of responsibility, 
which, as you saw, from Washington all the way over to 
Minnesota is a pretty large area. So I hit the Montana area in 
the winter time frame and started in--actually flew into 
Spokane, did Idaho, and then locations all the way over to 
Sweetgrass. I found it very beneficial myself to actually see 
it, especially during those winter months, to see the 
conditions that our officers live in and the environment that 
they have to work in.
    Senator Tester. And when you get to the State, I assume you 
hit as many border crossings as you can and visit with the 
folks that you have directly within your agency. Now, I know 
CBP combined some years ago. But do you make it a point to talk 
with the Border Patrol? Do you visit with the Border Patrol 
folks, too? Is it a part of your----
    Ms. James. Daily routine?
    Senator Tester. Yes.
    Ms. James. It may not be my daily routine, but it certainly 
is very important for me to do. Ms. Neinast and I, when I did 
visit Montana, met with the chief and exchanged some of the 
issues that we do have, even attended some national training 
together. I actually have four sector chiefs that I deal with 
within my area of responsibility. So it is important for me to 
know who they are and be able to exchange concerns and issues.
    Senator Tester. This may be unfair because I did not warn 
you ahead of time, but that is OK. Let's just take from Glacier 
Park to the North Dakota line. Can you give me an idea what 
kind of staffing needs that you see--I am just talking about 
your ports--what kind of staffing needs you think we need to 
have as far as numbers and what kind of infrastructure needs 
are out there?
    Ms. James. Well, let's start with staffing. We have enough 
staff certainly to open the doors and do what we need to do. We 
could always use additional officers out there. I would never 
turn down another officer position. And I will readily admit, 
with our limited resources, we try to leverage our personnel 
the best we can. The exact numbers that I would like to see out 
there, I would really have to sit down and put pen to paper, 
and I would never say I do not need personnel out there.
    Senator Tester. I would like it if at some point in time 
you could get that information to me; that would be great.
    Ms. James. OK.
    Senator Tester. How about from an infrastructure 
standpoint?
    Ms. James. From an infrastructure standpoint, we certainly 
have a lot of those locations that are out there that could use 
some upgrades. You went to Scobey. It could necessarily use a 
full new facility there. We also have a lot of issues with our 
housing. Because some of our locations are so remote, we do 
have government housing for the employees. It is particularly 
of interest to me because some of those locations have issues 
with the roofs leaking, flooding, mold, and these are remote 
locations. And I do appreciate the hard work that the officers 
do. Some of them will commute a long ways. Some just cannot, so 
we have that government housing in place, and it is important 
for us to keep on that.
    Senator Tester. From a technological standpoint, you talked 
about portal monitors and radiation checkers. Are things in the 
pipeline to get everything taken care of from a technological 
standpoint from your perspective? Or does there need to be more 
work done there?
    Ms. James. There is a good amount in the pipeline. As I 
said, we are about finished with the radiation portal monitor 
surveys, so there are plans in the works to put those at the 
ports of entry. We could utilize some more radiation isotope 
identification devices. That is some of the smaller stuff. And 
we have some surveys that are slated specifically for 
Sweetgrass, Montana, for radio-frequency identification (RFID) 
when we become fully compliant with the WHTI program.
    Senator Tester. As we started out in the northeast corner 
and we wandered here to Havre, of course, we ran across ports 
like Morgan, Turner, and Wild Horse is north of here. There are 
75 to 100 people here, I would guess--some Canadians, some 
folks from the United States, welcome, you folks from Canada. I 
would guess that there is probably a high percentage of folks 
here that want to know about Wild Horse.
    There has been a push--Representative Musgrove put a 
resolution through the Montana legislature a year or so ago on 
that port. And like I said, when I went through Turner, they 
pushed me. When I went through Malta, they were pushing me for 
those ports, too.
    Can you tell me what--and I know you could probably talk 
all day on this, but what are some of the obstacles of opening 
a port like Wild Horse for 24 hours? And how can we overcome 
those obstacles?
    Ms. James. I fully recognize this is a very----
    Senator Tester. Everybody had to check their weapons at the 
door, by the way, so you----
    Ms. James. Thanks. I do appreciate that. [Laughter.]
    I recognize this is a very passionate issue with everyone, 
so I do not take this lightly. And let me preface this by 
saying that CBP is not averse to increasing hours of operation 
or making it a port of entry. We have these requests, probably 
on a daily basis, but we have to look at our limited resources 
that we do have. We look at the workload. We look at the 
projected workload and what the interest for that increase is 
within that community, within the trade.
    I recently came from a field office where we had a request 
to make a user fee airport into a port of entry. It does not 
happen every day, but we supported it because the data was 
there. We had interest from not only the trade and the 
community, but we had the commitment from the trade saying, 
yes, we will be utilizing this port.
    So I recognize that there is the interest from the 
community, but at this point, in looking through the numbers 
that we have, the data that is on paper as to the number of 
vehicles that go through that port, the number of truck traffic 
that we have go through that port, and recognizing it is a 
permit port only at this time, the data does not support making 
it a 24-hour commercial port.
    Some of the obstacles: To make it a 24-hour commercial 
port, we would have to revamp the entire facility. It does not 
have the proper exam functions within that facility. The road 
infrastructure--and, of course, that is beyond our control--
would have to be improved, and staffing would have to increase 
also.
    Senator Tester. Yes. You talked about a 24-hour commercial 
port. What if we cut it down a little bit? What if it was a 
port that was open 16 or 18 hours a day that was still a permit 
for trucks, what about that? What would that take?
    Ms. James. Again, we go back and we look at the data. What 
is the crossing data and what are the other locations that are 
nearby? Are those other locations overtaxed with traffic going 
through those ports, like Sweetgrass? I know this argument has 
been out there also. And are there huge back-ups in Sweetgrass 
from the commercial standpoint? Would there truly be a big 
increase if we would open it a full 16 hours?
    Senator Tester. Right. There are a lot of things that will 
impact that, though. And I know I am supposed to ask the 
questions, but the truth is that any of these ports you are 
talking about, if there is a commitment to redo the roads, if 
the U.S. dollar happens to drop in strength and the Canadian 
dollar happens to go up, or vice versa, that can have some 
major impacts on that.
    So I guess just to cut to the chase, if Senator Max Baucus 
and I were able to get some push for it back in Washington, DC, 
you would be not antagonistic toward it, is what I am saying. 
You would be, we are going to do this, we are going to make 
this work. That is what I am looking for.
    Ms. James. The other thing that I would be looking for is 
commitment from the trade.
    Senator Tester. OK.
    Ms. James. You have a study that is out there, but I think 
that it could be--you could bolster your study with a firm 
commitment from the trade saying, yes, this is the port we are 
going to utilize. That part is a little bit lacking.
    Senator Tester. Thank you. And we are running out of time. 
I could actually spent another hour talking with you and Ms. 
Neinast.
    Ms. James. I am sure you could.
    Senator Tester. In a good way. And, by the way, I should 
preface this. Each one of you folks have different 
responsibilities in your duty, and I will tell you that I 
appreciate each and every one of you, what you do and the 
challenges you face on a daily basis.
    Ms. Neinast, I have a few questions for you. You said that 
you were not at 340 agents. The entire northern border was at 
340 agents----
    Ms. Neinast. The entire northern border was at 340 agents.
    Senator Tester [continuing]. In 2001, and now it is about 
1,200 agents. You are at about 125 agents here in your region 
from basically the Rocky Mountain front to the North Dakota 
border? What do you anticipate those numbers being, say, 5 
years from now?
    Ms. Neinast. Everything that we do is based on operational 
requirements, what the threats are, what the vulnerabilities 
are, what the traffic is. We do that nationwide.
    We have a budget plan that we have in place that is multi-
year that addresses all of those issues. In that, we are 
looking at 5 years out, around 300 for the Havre Sector portion 
of Montana.
    Senator Tester. Are those numbers based on--well, maybe I 
should just back up a little bit. Ms. James talked about the 
criminal cases that they are dealing with on their ports, 
mainly. What kind of impacts has Border Patrol seen? In other 
words, how many cases have you guys brought up, say, in the 
last year?
    Ms. Neinast. I could probably look through and find that 
number for you. Our staffing is not based on cases or numbers 
or statistics, so you need to understand that. Our mission is 
operational control of the border. Do we know if something is 
crossing and can we respond? We are more of a preparatory 
than--we do not staff based on whether we had 5 crossings here 
or 20 crossings here or 200 crossings here. Granted, that is 
part of it when you looked at vulnerabilities and threats, but 
we look at can we effectively respond to the areas of the 
border that we need to respond to.
    Senator Tester. It does not need to be today, but if you 
could get me those crossing threats, that would be great.
    From a technological standpoint, what do you see as the 
needs on the border? Do you see technology playing a big role? 
We talked about the southern border being different from the 
northern border, and absolutely it is. But what role do you see 
technology playing on the northern border?
    Ms. Neinast. Because of the remoteness of the northern 
border and the challenges that we are always going to have 
because of the infrastructure, the roads to get to the border, 
and those types of things, there are definite technological 
needs on the northern border. Detection capabilities--they do 
not manage the border, but they monitor the border for us. And 
if I have technology to monitor activity levels or monitor an 
area where there is a crossing, it makes it easier for me to 
respond.
    Senator Tester. What do you see that technology taking the 
form of?
    Ms. Neinast. One of the things that we use are the 
unattended ground sensors. We use those very heavily. We have 
done that for a number of years. And we are getting more of 
those into the State all the time.
    Senator Tester. How much of the border is covered by ground 
sensors in your sector? Is it 30 miles? A hundred miles?
    Ms. Neinast. Well, when we are talking about ground 
sensors, I can tell you every known crossing point is covered 
by that type of technology. With that comes the requirement for 
sensor towers and things like that.
    Senator Tester. When did those go into place?
    Ms. Neinast. We have had them for a number of years.
    Senator Tester. Before September 11, 2001?
    Ms. Neinast. Yes, and we have increased since then.
    Senator Tester. What about radar? What is your perspective 
on that?
    Ms. Neinast. Are we talking ground surveillance radar or 
are we talking aviation radar?
    Senator Tester. We are talking avaiation radar below a 
mile, 5,000 feet and below.
    Ms. Neinast. Anybody who has got any kind of a pilot's 
background will know for the majority of the State of Montana, 
there is no radar coverage below 5,000 feet. And because of 
that--and I have tactical responsibility for the CBP air 
portion--that is another threat and vulnerability that we have 
to deal with and address.
    Senator Tester. When do you see that being addressed?
    Ms. Neinast. Currently, there is a working group in 
Washington, DC, that is addressing these types of issues, and 
they are working with the Canadian authorities for a wide 
border technology because if the Canadians have cameras or 
radar in an area, we are looking at trying to tie into their 
radar instead of us necessarily having to use our own and force 
multiply across through agreements, national agreements.
    Senator Tester. And this may be unfair because we are 
talking about the Canadian Government now. Do you know of any 
Canadian radar that exists at this point in time within your 
sector on the border?
    Ms. Neinast. I know there is Canadian radar along the 
border. I do not know the exact locations of that.
    Senator Tester. And that is probably best that you do not 
say it if you do know. [Laughter.]
    The issue of partnerships and working together, I broached 
this question with Ms. James, and I am going to ask you the 
same thing. Ms. James talked about her meeting with you, of 
course. What about the other folks in Customs like--well, we 
have them here today--Mr. Brown and Mr. Overcast--those folks. 
How often do you meet with those guys?
    Ms. Neinast. I meet with them fairly often, but I have 
staff that meets with them regularly. So you understand, my 
focus--yes, I am responsible for the sector, but I have a dual 
focus. I also am responsible to Washington, DC, in resourcing 
and getting the agents in the field what they need. So I spend 
a lot of time out of the State, much like you do. So it is the 
nature of my responsibility. My staff meets with them 
regularly.
    Senator Tester. I only spend half my time out of the State. 
[Laughter.]
    Let me make that clear.
    Ms. Neinast. Me, too.
    Senator Tester. This is going to be my last question 
because we have another panel here. We could go on for hours. 
There was a GAO report that came out in 2006 that talked about 
inadequacies and making the face at the border one. We are 
still a ways away from addressing all those things in the GAO 
report. Are you somewhat interchangeable when it comes to 
helping folks get across the border for whatever reasons?
    Ms. Neinast. One of the things that has happened since 
September 11, 2001, and the creation of CBP--in many years 
past, all the Border Patrol agents knew immigration law.
    Senator Tester. Yes.
    Ms. Neinast. And they could fill in at a port of entry on 
overtime to handle immigration inspections.
    Senator Tester. Right.
    Ms. Neinast. That has changed because the nature of the CBP 
officer position and what they do is so complex and so 
different than what we do that we no longer have that 
interchangeability at the ports of entry.
    Senator Tester. Is that interchangeability--I mean, could 
it be re-established like it was way back when?
    Ms. Neinast. I would not know that we would want to, to be 
honest with you, simply because of the complexity and the 
nature of the job.
    Senator Tester. All right. Sounds good. Thank you.
    Thank you very much. We have got to get rolling with the 
next panel. I would just say one other thing, and this just 
comes--and I want to get it on the record--from my talking 
across the board. I think that there could be a lot more work 
done that would cost us virtually no money by working more with 
the people who live on the border that know that border. I am 
talking about the farmers and ranchers up there. I think it is 
critically important--and I mean this, and I am going to be 
pressing these guys back in Washington, DC, on this, too. I 
think it is critically important that we build relationships 
with the people on the border, whether it is local government, 
whether it is the BIA folks, whether it is the Disaster and 
Emergency Services (DES) folks, but especially those farmers 
and ranchers that know that border like the back of their hand. 
It is very important, because as I think Mr. McGowan, Mr. 
DesRosier, or Ms. Matoon pointed out, it is never going to be 
100 percent. I am not sure that it even needs to be 100 percent 
because of obvious reasons--cost being the main one.
    Thank you all very much. I appreciate your being here, and 
I hope you stick around for the rest of the hearing and hear 
the public input afterwards. I want to get the next panel up 
here. Thank you very much.
    The next panel includes Loren Timmerman, Alex Philp, and 
Kris Merkel. It is great to have them here.
    I will tell you that Mr. Timmerman is representing the 
union that staffs Customs. Like we said, there are about 100 
customs inspectors throughout Montana, and he also represents 
folks in Idaho, Colorado, and Utah. Customs inspectors stand 
guard at airports and at all the ports along the border, 
whether we are talking about Sweetgrass or Turner or wherever. 
Mr. Timmerman has been a customs officer for well over a 
decade. He has seen much.
    We also have two gentlemen who are small business owners 
here in Montana dealing with technology. The first is Dr. Alex 
Philp, who runs GCS Research in Missoula, a technology company 
that deals with technology that can be used on the border. Dr. 
Philp started his career as a park ranger in Glacier National 
Park when he was 20 years old. Now, 20 years later--I guess we 
are kind of dating you, Dr. Philp--his work with geographic 
information system (GIS) technology has helped not only our 
State but several Federal agencies. We will be looking forward 
to his information on remote sensing and delivery and the kind 
of challenges that a small business in Montana is facing trying 
to get into the government contracting.
    Second is Kris Merkel. He is the President of S2 
Corporation in Bozeman. S2 is heavily involved in radar 
imaging. Their technology could be useful in everything from 
scanning packages at ports to providing radar across large 
stretches of our border. Some of their efforts, like the small 
ultra-wideband antennas to pick up illegal communications are 
specifically designed for remote areas.
    Both of these good Montana companies have a long 
relationship with the Department of Defense. Today, they are 
here to talk about their efforts to bring Montana technology to 
the Department of Homeland Security. We know that technology is 
going to be a major part of the effort to secure the border, 
That is part of the questions that I asked both Ms. James and 
Ms. Neinast. And they both have an interest in telling their 
stories about what brought them to that front.
    I want to thank everybody for being here on the second 
panel. We have 15 minutes. We are going to take a little more 
than 15 minutes, unfortunately. I am going to limit you to 5 
minutes pretty strictly, so hit the high points, and then we 
will get to questions, and you can elaborate a little more 
then, if you think it is important.
    Mr. Timmerman, go ahead.

  TESTIMONY OF LOREN L. TIMMERMAN,\1\ PRESIDENT, CHAPTER 231, 
    NATIONAL TREASURY EMPLOYEES UNION, GREAT FALLS, MONTANA

    Mr. Timmerman. Mr. Chairman, Members of the Senate 
Committee on Homeland Security and Governmental Affairs, thank 
you for the opportunity to testify before you today. My name is 
Loren Timmerman. I am the President of Chapter 231 of the 
National Treasury Employees Union (NTEU). I am here to testify 
in my capacity as President of NTEU Chapter 231, and not any 
official capacity or representative of either the Department of 
Homeland Security or Customs and Border Protection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Timmerman appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    I have been employed at the land port of Sweetgrass by the 
former U.S. Customs Service as a customs inspector since 2002 
and as a DHS Customs and Border Protection officer since its 
creation in 2003. All CBP employees recognize that change is 
difficult, but the changes at the northern border have proved 
to be particularly challenging.
    CBP employees are dedicated to protecting this Nation. We 
serve with pride and singleness of purpose. Stopping terrorism, 
smugglers, drugs, counterfeit goods, currency, and human 
traffickers is our foremost goal, while at the same time moving 
the vibrant flow of legal trade and travelers across our 
border.
    But we here at the northern border and CBP employees around 
the country have become discouraged. Basic staffing needs at 
our ports of entry continue to go unmet. For years, NTEU has 
been saying that CBP needs several thousand additional officers 
and agriculture specialists at its ports of entry, that 
insufficient staffing and scheduling abuses are contributing to 
morale problems, fatigue, safety issues for both CBP officers 
and agriculture specialists, and that CBP is losing these 
employees faster than it can hire replacements.
    A large number of CBP officer vacancies remain unfilled. In 
addition, the ratio of supervisors to staff has increased 
dramatically at the northern border, aggravating the vacancy 
situation. Prior to September 11, 2001, the goal was one 
supervisor to every 15 inspectors. Today at Sweetgrass, there 
is one supervisor for every eight CBP officers. This ratio puts 
increasing scheduling pressure on the rank-and-file front-line 
officers, further demoralizing the workforce.
    Another source of concern for the CBP officers and CBP 
agriculture specialists nationwide is the institution of the 
One Face at the Border Initiative that was designed to 
eliminate the pre-September 11, 2001, separation of 
immigration, customs, and agriculture functions at U.S. land, 
sea, and air ports of entry. In practice, the One Face 
Initiative has resulted in diluting customs, immigration, and 
agriculture inspection specialization and the quality of 
passenger and cargo inspections.
    Under One Face, former immigration officers who were 
experts in identifying counterfeit foreign visas are now at 
seaports reviewing bills of lading from foreign container ships 
while expert land port customs inspectors are now reviewing 
passports at airports.
    The processes, procedures, and skills are very different at 
land, sea, and air ports, and the training and skill sets 
needed for passenger processing and cargo inspection differ as 
well.
    As a consequence of the One Face at the Border policy and 
CBP staffing shortages, an egregious and dangerous situation 
occurs regularly at land ports I represent. Unarmed agriculture 
specialists are regularly assigned to partner with armed CBP 
officers operating the vehicle and cargo system lanes. In the 
past, Vehicle and Cargo Inspection System (VACIS) lanes were 
staffed by two armed CBP officers. It is not the mission of CBP 
agriculture specialists to staff VACIS lanes, and because they 
are unarmed, both CBP officers and agriculture specialists are 
unnecessarily put in dangerous situations.
    Both on the northern border and nationally, staffing 
shortages are exacerbated by challenges in retaining staff, 
again, contributing to an increasing number of CBP officer 
vacancies. Congress recently approved legislation that should 
improve CBP officer recruitment and retention significantly. 
This legislation will provide CBP officers with law enforcement 
retirement benefits beginning July 6, 2008. I want to thank 
Members of this Committee for your leadership on this effort.
    Scheduling abuses along with short staffing have produced 
overworked officers, safety and overtime violations, and 
concerns about favoritism in the assignment of work and 
overtime. Not surprisingly, CBP officers are leaving in droves.
    Mr. Chairman, the problems at the northern border are not 
unique. To address the challenges of the Montana land ports and 
all of our ports of entry, NTEU recommends the following:
    Fill vacancies and increase CBP officer and agriculture 
specialist staffing to those levels in CBP's own staffing 
model;
    Re-establish specialization of prior inspectional 
functions;
    Increase CBP officers' and agriculture specialists' 
journeyman pay to GS-12;
    Repeal the compromised DHS personnel system;
    Allow input in the shift assignment system;
    And also allow employee input in determining staffing 
levels for each shift.
    Thank you, and I am happy to answer any questions.
    Senator Tester. Thank you, Mr. Timmerman. Mr. Philp.

TESTIMONY OF J. ALEXANDER PHILP, PH.D.,\1\ PRESIDENT AND CHIEF 
              EXECUTIVE OFFICER, GCS HOLDINGS, INC

    Mr. Philp. Thank you, Senator. Thank you for this 
opportunity to testify before the Committee at this field 
hearing today, ``Securing the Northern Border: Views from the 
Front Lines.'' On behalf of the citizens in Montana and the 
United States, I consider it an honor and privilege to come 
here today before you and the Committee and share my 
experiences regarding the challenges in developing a 
relationship with the Department of Homeland Security and 
drawing attention to technologies that have Homeland Security 
applications. That was specifically what I was asked to comment 
on and testify on today before the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Philp appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    Senator Tester. Correct.
    Mr. Philp. I hope my testimony assists the Committee in 
improving processes. I offer my testimony in good faith and 
acknowledge both the very real threats facing our Nation's 
security and the complex organizational, technological, and 
political challenges facing the Department of Homeland 
Security. I do not claim to be an expert on DHS-related policy 
or programs, but I have been actively involved as a Montana-
based small business owner in trying to bring practical 
technology solutions to the front lines of the northern border 
security since and before September 11, 2001.
    What I am going to do, Senator, is summarize my full 
testimony that I submitted to you and the Committee.
    Senator Tester. Thank you.
    Mr. Philp. And I will make a few brief comments and points.
    First of all, my company specializes in geographic 
information system technology. There are lots of buzz words 
around that. One good one is ``GEOINT,'' geospatial 
intelligence. We have made a living from myself, after I spun 
out of the University of Montana, to about 20 guys and gals in 
Montana, so we are truly a small business, and my comments 
today are from that perspective.
    There are a lot of things I do not know about what is going 
on at CBP and Border Patrol because of the nature of the work, 
but we have certainly dabbled in advanced sensor system 
technology, integration, and open-source intelligence in a non-
classified capacity.
    Four main points about the nature of the northern border as 
a geographer, and I think this has already been commented on 
extensively. The northern border is not the southern border. It 
will not be the southern border, and it is unique in that 
sense. You can break the northern border down into a series of 
discrete geographies and regions. Montana happens to have many, 
even within our section, our 560 miles. So we have geographical 
challenges; we have cultural differences; and we certainly have 
an entirely different international perspective and, I would 
argue, active threat type. From what I have heard so far, there 
are a lot of things that were not discussed today by the 
officials that I think need to be brought to the table. I 
comment a lot about that in my written testimony.
    My perspective is from the outside looking in as a small 
business owner. Again, I am private sector. But I do read and 
pay attention to the GAO reports that come out. I certainly 
tracked the America's Shield Initiative before that died and 
SBInet started. And I have done my best to keep looking at this 
relationship between State and Federal cooperation, local 
cooperation, and certainly cooperation with the tribes. Three 
of the tribes in Montana happen to be my customers, so we are 
privy to their role to some degree and how they are using some 
of these technologies to help participate in northern border 
security.
    My written testimony focused on three areas that have been 
very frustrating for me as a private sector person volunteering 
ad nauseam on all these committees.
    Certainly, at the State level, the Science and Technology 
Committee and the GIS Subcommittee at the State level--the 
Science and Technology Committee never even had a second 
meeting, as far as I know. The GIS Subcommittee did a large 
amount of hard work, but I was frustrated in the ability of 
that subcommittee to really interface with Federal officials at 
the level we needed to be with people that did not have 
clearances.
    Then I spent years trying to do a program with the 
Integrated Border Enforcement Team at the request of members of 
IBET, with friends of mine that I used to work with, and U.S. 
Forest Service and National Park Service, to have that 
basically go away after a year and a half of activity.
    And, finally, based on work I do with the U.S. Departments 
of Defense, Navy, Army, and the U.S. intelligence community, we 
spent 2 years almost putting a program together regarding 
advanced sensor technology for covert, clandestine operations 
on the northern border at the request of CBP officials, only to 
have that program killed, and I am still trying to figure out 
how and why. That is Blue Rose.
    Again, I do not want to sound like I am whining up here as 
a small business owner. We are not asking for any special 
privileges. We are not asking for big, huge contracts, but 
there is something very wrong with the process that I have 
observed, and I have shared that in my testimony.
    Finally, some observations. I was to specifically comment 
on improving the process. I think we should be looking at even 
better and more innovative ideas regarding regionalism and 
regional approaches to the challenges of the northern border. 
Having worked for multiple Federal agencies myself, I am aware 
of jurisdictions, I am aware of uniforms and trying to get 
along. But we just drove from Chief Mountain all the way over 
to Sweetgrass yesterday, trying to tour it ourselves, get a 
sense of it, and almost got stuck in the mud. The bottom line, 
we need to be looking at this a little bit differently. One 
size does not fit all and will never fit all, certainly 
technologically. I think people agree to that.
    I think the role of the private sector should be reassessed 
here in terms of cost-effectiveness. I think GAO just announced 
yesterday that CBP has spent now over $1 billion on SBInet, and 
the numbers are even lower than they thought. There is not a 
day or a week that goes by that GAO does not have a new report 
basically saying, hey, look at this, look at that. So the role 
of the private sector as a small business owner has been 
difficult because the way DHS at the Washington-level 
contracts, they basically say to the big primes, defense 
primes, or others that bid, ``Go put your teams together,'' and 
that may be a hundred companies, it may be three companies. And 
directly contracting small business has been hard, and I 
basically stopped trying. I went to other Federal agencies, and 
most of my work is with the Department of Energy (DOE) and the 
Department of Defense (DOD) in national intelligence. If it is 
good enough for them, it is good enough for others.
    Wrapping up here, sir, I have been able to build 
relationships at the local level with the Federal agencies, but 
when it gets to mid-level or Washington, DC, it gets very 
difficult. We do not have the bandwidth or the resources to 
play at the Washington-level. It is very top-down. Bottom-up is 
not working, in my opinion. Contracting is difficult even if 
you can get interest on the part of the Federal agencies that 
you might have something of interest or meets requirements 
since they are very requirement driven.
    DHS relies on large contractors to figure it out, and they 
do not have enough contracting officers to fully vet those, 
anyway. And we have some technologies that work now, but, 
again, unless you are huge and big, the reality of those 
technologies may or may not see the light of day.
    Finally, some recommendations, sir. It shocks me that the 
DHS Under Secretary can get off a helicopter and say, ``I 
should have come out here a long time ago,'' and lay eyes on 
the problem. That blows me away.
    Senator Tester. He just got confirmed.
    Mr. Philp. But that is good. I am glad he got in a 
helicopter and flew around out here. We need a liaison office. 
I think DHS, like the U.S. Geologicval Survey (USGS), like 
other Federal agencies, needs someone out here that can act as 
the hub. I do not want to sound too cynical, but we need 
someone here above Border Patrol and CBP putting it together, 
certainly putting energy into it every day, not just once a 
year or twice a year. And I understand the difficulties and the 
amount of challenges people are facing.
    We need integration offices. We need regional integration 
offices that are looking at the technology against the problem, 
against the threat. Multi-billion-dollar, top-down magic boxes 
slapped together are not going to work, and they are not going 
to work on the northern border. And we are never going to have 
a 20-foot fence lining this thing either.
    I think we need business officers that understand the role 
of small business and the difficulty of small business and the 
Federal Acquisition Regulations that small businesses do not 
necessarily have to comply with because we do not have staffs 
of people to do grants.
    Senator Tester. Better wrap it up.
    Mr. Philp. We need more small business innovative research 
grants. We need some small business vendor days. And I would 
certainly love to leverage the activity of Federal, State, 
local, and tribal governments to try to do jobs. We are here as 
a private sector firm doing work on the national security every 
day because we choose to. We would like to expand and extend 
that, but one of our greatest frustrations is how can we help 
play a role as a small business in solving the challenges 
facing northern border security.
    I do not have the answers, but I have given you some 
recommendations at your request. Thank you very much.
    Senator Tester. Thank you very much. Dr. Merkel.

TESTIMONY OF KRISTIAN D. MERKEL, PH.D.,\1\ PRESIDENT AND CHIEF 
      EXECUTIVE OFFICER, S2 CORPORATION, BOZEMAN, MONTANA

    Mr. Merkel. Senator Tester, Members of the Committee, I 
want to thank you for holding this hearing to discuss the 
issues in regard to Homeland Security. My name is Kris Merkel, 
and I am the President and CEO of S2 Corporation, a small 
business in Bozeman, Montana, that employs approximately 15 
people--Ph.D, master's, and bachelor's degree levels--primarily 
from Montana State University. S2 Corporation was created with 
the sole aim to develop and commercialize an exciting new 
technology that we abbreviate as S2, which is shorthand for 
spatial spectral holography, something I am sure no one here 
has heard about, but that was developed primarily at Montana 
State University over the past two decades. The applications 
for S2 are mainly in ultra-wideband radio frequency signal 
processing and surveillance, for the goals of radar imaging, 
signal intelligence, and communications. The S2 technology is 
what I would call a disruptive technology, representing a new 
way of achieving a better result which is of high importance to 
national homeland security and defense. To date, the technology 
development efforts have been funded primarily from the 
Department of Defense Science and Technology accounts. This has 
included participation by the U.S. Army, Navy, Air Force, and 
the Missile Defense Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Merkel with an attachment appears 
in the Appendix on page 86.
---------------------------------------------------------------------------
    Over the past 2 years, due to our engineering efforts at S2 
Corporation, the S2 technology has transitioned from being a 
laboratory curiosity to a rugged, general-purpose prototype 
device, which in January of this year, 2008, was shipped 
overseas and tested on operational radars at the direction of 
the U.S. Army and is listed as a critical technology within 
that branch of the military. In short, the tests were a success 
and the technology worked.
    The implications of using this technology are immediate 
access and full domination of the radio frequency (RF) spectrum 
out to microwave frequencies. This capability includes being 
able to simultaneously achieve total spectral awareness and to 
be able to rapidly reconfigure our use of the RF spectrum for 
adaptive radar and communications. One of the greatest 
challenges facing our military and defense of our border around 
the world is the explosion in signals in the radio frequency 
spectrum that now occupy the entire radio frequency spectrum. 
Our technology would allow our defense and national security 
agencies a whole new mode of operation to continuously identify 
all of the operating signals and then find a bandwidth where 
they could operate securely. Other technology applications 
include the ability to visualize such things as improvised 
explosive devices underground and interpret the data in real 
time. This is a truly disruptive technology, and at the heart 
of it is a crystal, cryogenically cooled, which absorbs light 
to achieve signal processing. Interestingly enough, this is a 
home-grown technology in that the crystals themselves have been 
grown in Bozeman, and the technology has been conceived, 
designed, built, and tested in Bozeman by the scientists and 
engineers out of Montana State.
    The technology is poised to achieve unique performance 
improvements and cost savings for a host of critically needed 
security applications. Like I have described, the technology 
offers many benefits, but two of these I think would be of 
immediate interest to the Department of Homeland Security. 
These are the need to monitor the vast borders and secure the 
safe transmission of information around the border, as well as 
monitor the radio communications around the borders. The 
second, and just as important, application is quickly being 
able to investigate cargo containers as they pass through our 
ports. I will, of course, explain further if the Committee or 
yourself have any questions about the technology, but I will 
leave it now at it is a disruptive technology with significant 
potential benefit to our national security.
    I will say attempting to do business with the Department of 
Homeland Security, as a small business with a new and 
innovative technological approach, has been, frankly, 
frustrating. I have seen little incentive for the agencies to 
move toward small technology programs like ours rather than to 
give large contracts to the typical large defense contractors.
    The cargo container seems to come up in Congress only to be 
opposed as too costly with little or no technology discussion. 
I for one would appreciate technology discussions that would 
help maintain the appropriate contacts within Washington, DC, 
and the large contractors. I have personally found, without 
going into details, that positive leads have been pursued only 
to be followed by silence. When we have approached new leads, 
the discussions have gone around and around, from government to 
contractor, to another contractor, and back to government. 
Indeed, they go nowhere.
    We want to be part of the solution. We have a technology 
that has proven successful at each step along its development 
path. I want to thank the Committee for holding this hearing 
and, Senator Tester, you in particular for providing S2 with 
the opportunity to present our case.
    Senator Tester. Thank you very much, and I want to thank 
all the participants in the second panel. I will tell you that 
with your permission I want to take your entire testimony, plus 
all the testimony for the record for this Committee hearing, 
and send it to the Chairman of the Small Business Committee 
because I think he needs to hear that also.
    Mr. Merkel. I would greatly appreciate that, Senator.
    Mr. Philp. That is fine, Senator.
    Senator Tester. Thank you.
    Mr. Timmerman, could you give me an idea of what is the 
turnover on the staff? You touched on it. Is it 10 percent? Are 
you getting 10-percent turnover every year? Twenty percent? 
Thirty percent? Can you give me an idea of what it is? And if 
you do not know, you can get back to me with it.
    Mr. Timmerman. In my opinion, I think it would be around 
the 15-percent range.
    Senator Tester. Fifteen percent turnover? And you talked 
about understaffing. What are you understaffed by, the same 
amount, 10 or 15 percent, or is it more than that?
    Mr. Timmerman. It fluctuates throughout the year. It just 
depends how many might leave in a certain given period. So it 
is kind of hard to put a number on that.
    Senator Tester. Would you say that the reason most people 
leave--are they staying in Customs, or are they leaving the 
business altogether and going somewhere else.
    Mr. Timmerman. They usually leave for other agencies. We 
have had a few go to local--not local police departments, but 
the Bozeman Police Department. We had one leave and go there.
    Senator Tester. What influence do you think geography has 
on folks leaving?
    Mr. Timmerman. Well, certainly, with the price of gas going 
through the roof, driving 50 or 60 miles one way to work has a 
lot to do with it now. And the remote location does have quite 
a bit to do with it. With our officers that live over towards 
Chief Mountain, they have to travel 90 miles one way to go 
shopping in Great Falls.
    Senator Tester. Is there a morale problem amongst your 
employees? I gathered from your statement there is.
    Mr. Timmerman. Yes, there is.
    Senator Tester. And do you think that is caused by 
understaffing?
    Mr. Timmerman. I think understaffing is the biggest part of 
the problem, not having enough people to deal with the 
travelers coming through the ports of entry.
    Senator Tester. Could you give me an idea on how your staff 
is? We got testimony here that it went from 348 to 1,200 at 
this point in time for the Border Patrol. That is almost four 
times. What has your increase been since September 11, 2001?
    Mr. Timmerman. I would say about three- to four-fold.
    Senator Tester. Thank you very much, Mr. Timmerman.
    I also want to thank the two small business folks who are 
here. Have you both dealt with other agencies other than DHS? I 
know you have, Dr. Philp. You have dealt with the Department of 
Defense, is what your testimony said. How about you, Dr. 
Merkel? Have you dealt with other agencies?
    Mr. Merkel. All Defense--Army, Navy----
    Senator Tester. So you are both in the same boat.
    Mr. Merkel. Yes, sir.
    Senator Tester. How does DHS compare with Defense? What 
could DHS do that the Defense Department does that would make 
the process better, if the Defense Department is simpler and 
more user-friendly for small businesses? Or maybe they are just 
as---- [Laughter.]
    Mr. Philp. We do deal with the Defense Department and a lot 
with U.S. intelligence agencies, and it is growing 
exponentially every day, which is a good thing. Defense and 
U.S. intelligence agencies, they both work differently. We 
represent, as the word was used, a good word, ``disruptive 
technology,'' advanced technology. We are usually in emerging 
late-stage R&D, solving requirements for DOD.
    Intelligence community problems are there, and we have made 
a 6-year business out of that.
    At DOD, the budgets are big. It is not that we do not deal 
with large contractors there because they have the contract 
vehicles. They own the contract vehicles. It is very hard to 
have a contract vehicle. But if the Army, in particular, my 
biggest customer, wants to move, they move; they move quick. 
And if you do your job, you are rewarded. If you do not do your 
job, you are done. That is kind of the way it is. At least, 
that is my experience.
    I made some recommendations. I think DHS has to understand 
that small business exists. I think they do. I think they try 
with Small Business Innovative Research (SBIR), and Broad 
Agency Announcement (BAA) solicitations. But there has to be an 
appreciation of how to better integrate the capabilities and 
offerings of small business more quickly and more rapidly.
    My experience with SBInet was every major defense 
contractor did come to Missoula. They did find out about us, 
and it was usually four or five of those guys--one of their 
lawyers, a couple of their chief technology officers (CTOs), 
and their group vice president. And it would be me. And they 
would vet us hard. And if they could not take what we had and 
basically go on and do something with it, then they were 
interested in price point. They wanted to slap something 
together quick, put us on their team, call it good.
    We did get put on one of the major teams--Ericsson's team 
for SBInet. Unfortunately, Ericsson lost the bid to Boeing. So 
it was DOA at that point.
    I think DHS could look at how small business has certain 
technologies, organize those around their requirements, and 
more readily cycle those capabilities into test beds and/or 
test centers. That does not mean you are going to have to spend 
$40 billion on something, but let's at least try it before we 
reject it.
    Senator Tester. Dr. Merkel, what has your experience been?
    Mr. Merkel. I would echo some of those same sentiments from 
a slightly different perspective. I have done contracting with 
the Defense Department. I would quantify that as frustrating, 
but when our results are a contract in place, things can happen 
very fast. And, by comparison, I have felt the Department of 
Homeland Security is somewhat impenetrable from the standpoint 
that large contracts are awarded to large primes. And if there 
was a recommendation, it would be to encourage or put 
requirements in place to include new technology, emerging 
technology, as a part of the overall contracting process to 
those large primes so that they can be included from the 
beginning.
    I would echo what Mr. Philp said earlier, that if there is 
something that is not ready to go today, as far as the 
Department of Homeland Security is concerned, it does not 
really fit the bill.
    Senator Tester. Typically, when you do not get a contract--
you talked about Blue Rose, Mr. Philp. Mr. Merkel, you have 
been dealing with it. You do not get a contract. Do they give 
you a reason? Or do they just say, ``You did not get the 
contract?''
    Mr. Philp. In our experience--and I have to be very careful 
here for sensitivities to friends--we never did get an answer 
because we were not the ones submitting the request. It was the 
government requesting to do the project within government.
    Senator Tester. OK.
    Mr. Philp. And I had to spend 2 years gathering my own 
information on what happened and why and was told to back off 
and walk away.
    Senator Tester. What about you, Mr. Merkel?
    Mr. Merkel. We have just done targeted technical marketing 
to the primes or large companies that already have the 
contract--Boeing or L-3 Communications, for example--and so 
there is no debriefing process. It is really just a lot of 
effort going in front of them, gaining attention, and then it 
does not, from my experience to date, go anywhere.
    Senator Tester. Well, I want to thank you all. Like I said, 
I have a ton of more questions, and we will probably connect up 
with you down the line and visit with all three of you. In 
fact, I know that for a fact as things unfold.
    The record will be open for 15 days after this hearing. If 
there are folks in the audience that want to submit testimony, 
you are certainly welcome to do so. The more viewpoints we 
have, the better off we are, and the better we can make policy 
that works for the northern border. Like what was said here 
many times today, the South is a whole lot different than the 
North, and no shoe fits everything.
    I want to thank you again. This hearing is adjourned.
    [Whereupon, at 11:43 a.m., the Committee was adjourned.]






























                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
